No. 20-575
In The
Supreme Court of the United States
ROYAL TRUCK & TRAILER SALES AND
SERVICES, INC.,
Petitioner,
v.
MIKE KRAFT AND KELLY MATHEWS A/K/A
KELLY SCHLIMMER
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
MIKE KRAFT AND KELLY MATHEWS A/K/A
KELLY SCHLIMMER’S BRIEF IN OPPOSITION
Richard T. Hewlett (Counsel of Record)
Salvatore J. Vitale
Jordan Giles
39500 High Pointe Blvd, Suite 350
Novi, MI 48375
(248) 567-7426
rthewlett@varnumlaw.com
sjvitale@varnumlaw.com
jcgiles@varnumlaw.com
Counsel for Respondents Mike Kraft and Kelly
Mathews A/K/A Kelly Schlimmer

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief in Opposition contains 2720 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
Executed on March 5, 2021.
Respectfully submitted,
VARNUM LLP
By:

/s/ Richard T. Hewlett
Counsel of Record

Richard T. Hewlett (Counsel of Record)
Salvatore Vitale
Jordan Giles
Attorneys for Respondents
39500 High Point Blvd. Suite 350
Novi, MI 48375
(248) 567-7400
rthewlett@varnumlaw.com
sjvitale@varnumlaw.com
jcgiles@varnumlaw.com

1

